No. __________________

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID STILES, JR. – PETITIONER
vs.
STATE OF TEXAS – RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE
COURT OF APPEALS OF TEXAS, FOURTEENTH DISTRICT, HOUSTON

PROOF OF SERVICE

I, Michael C. Gross, a member of the bar of this Court, hereby certify that on
this 13th day of November 2020, a copy of the Petition for Writ of Certiorari in this
case was mailed, by depositing the document with the United States Postal Service
with no less than first-class postage prepaid, to Ken Paxton, Attorney General, P.O.
Box 12548, Capitol Station, Austin, Texas 78711-2548. I certify that all parties
required to be served have been served.

Michael C. Gross
Counsel of Record
1524 North Alamo Street
San Antonio, Texas 78215
(210) 354-1919
(210) 354-1920 Fax
Counsel for the Petitioner,
David Stiles, Jr.

